BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief in Opposition in 19257, California Trout, et al. v. Hoopa Valley Tribe, et
al., were sent via Three Day Service to the U.S.
Supreme Court, and 3 copies were sent Three Day
Service and e-mail to the following parties listed
below, this 28th day of October, 2019:
Andrew Harry Erteschik
Poyner Spruill LLP
P.O . Box 1801
Raleigh, NC 27602-1801
(919) 783-2895
aerteschik@poynerspruill.com

Counsel for Petitioners
Richard Roos-Collins
[1 courtesy copy]
Julie Gantenbein
Water and Power Law Group PC
2140 Shattuck Avenue
Suite 801
Berkeley, CA 94704

Counsel for Petitioner California Trout
Brian Johnson
Trout Unlimited
5950 Doyle Street
Suite 2
Emeryville, CA 94608

[1 courtesy copy]

Counsel for Petitioner Trout Unlimited

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Thane D. Somerville
Counsel of Record
Thomas P. Schlosser
Morisset, Schlosser, Jozwiak, & Somerville APC
811 First Avenue, Suite 218
Seattle, WA 98104
(206) 386-5200
t.somerville@msaj.com
Counsel for Respondent Hoopa Valley Tribe
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States
Robert Michael Kennedy, Jr.
Robert Harris Solomon
Federal Energy Regulatory Commission
(FERC) Office of the Solicitor
Room 9A-Ol
888 First Street, NE
Washington, DC 20426
(202) 502-6600
ro bert.kennedy@ferc.gov
robert. solomon@ferc.gov
Counsel for Respondent
Federal Energy Regulatory Commission

Paul S. Weiland
Nossaman LLP
18101 Von Karman Avenue, Suite 1800
Irvine, CA 92612
(949) 833-7800
pweiland@nossaman.com
Counsel for Respondent County of Siskiyou
Charles R. Sensiba
Morgan M. Gerard
Troutman Sanders LLP
401 9th Street NW, Suite 1000
Washington, DC 20004
(202) 27 4-2950
charles.sensiba@troutman.com
morgan.gerard@troutman.com
Counsel for Intervenor PacifiCorp
Stuart L. Somach
Somach Simmons & Dunn
500 Capitol Mall, Suite 1000
Sacramento, CA 95814
(916) 446-7979
ssomach@somachlaw.com
Counsel for Respondent-Intervenor
Klamath Water Users Association

I further certify that 1 courtesy copy was sent
Three Day Service to the following parties listed below,
this 28th day of October, 2019:
Benjamin Noah Gutman
Oregon Department of Justice
1162 Court Street NE
Salem, OR 97301
(503) 378-4402
benjamin.gutman@doj.state.or.us

Counsel for Amicus Curiae State of Oregon
Misha Tseytlin
Troutman Sanders LLP
One North Wacker Drive
Suite 2905
Chicago, IL 60606
(312) 759-1920
misha.tseytlin@troutman.com

Counsel for Amicus Curiae PacifiCorp
Jona Ma ukonen
Office of the Attorney General
State of Oregon
1162 Court Street, NE
100 Justice Building
Salem, OR 97301
(503) 378-4400
jona.j.maukonen@doj.state.or.us

Counsel for Amici Curiae States of Oregon, Alaska,
Hawaii, Idaho, Maine, Massachusetts, Michigan,
Minnesota, New Jersey, Rhode Island, South Dakota,
Vermont, Washington, and Wyoming

Sonia A. Wolfman
Office of the Attorney General
2425 Bristol Court SW, 2nd Floor
Olympia, WA 98504-0117
(360) 586-6770
sonia.wolfman@atg.wa.gov
Counsel for Amici Curiae States of Washington,
Hawaii, Idaho, Maine, New Hampshire, New York,
Utah, and Wyoming
Eric M. Katz
Adam Levitan
Office of the Attorney General
State of California
300 South Spring Street
Los Angeles, CA 90013
(213) 269-6000
eric.katz@doj.ca. gov
adam.levitan@doj.ca. gov
Counsel for Amicus Curiae California State Water
Resources Control Board
Robert A. Nasdor
American Whitewater
365 Boston Post Road, Suite 250
Sudbury, MA 01776
(978) 443-2411
bob@americanw hitewater .org
Counsel for Amici Curiae Karuk Tribe, the Yurok
Tribe, American Whitewater, California Sportfishing
Protection Alliance, South Yuba River Citizens League,
California Outdoors, Friends of the River, and Idaho
Rivers United

Amy Cordalis
Yurok Tribe
190 Klamath Boulevard
Klamath, CA 95548
(707) 482-1350
acordalis@yuroktribe.nsn.us

Counsel for Amicus Curiae Yurok Tribe
Andrew M. Hawley
Western Environmental Law Center
1402 3rd Avenue
Suite 1022
Seattle, WA 98101
(206) 487-7207
hawley@westernlaw.org

Counsel for Amici Curiae Karuk Tribe, the Yurok
Tribe, American Whitewater, California Sportfishing
ProtectionAlliance, South Yuba River Citizens League,
California Outdoors, Friends of the River, and Idaho
Rivers United

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 28, 2019.

Donna J. Wolf
Becker Gallagher Legal Pu ·shing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notar~

Qc ~~

(_~ ,-( cl i

G ';I,-_

[seal]

.JUL1E ANNE l<ERSHN~R
State of OhlO
tAy Commission Expires
February 21, 2023

•1,J.r.1,y Puulic,

